<html>
<title> - EXAMINING DRUG SMUGGLING AND GANG ACTIVITY IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 111-500]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-500
 
      EXAMINING DRUG SMUGGLING AND GANG ACTIVITY IN INDIAN COUNTRY 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2009

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-934 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 19, 2009................................     1
Statement of Senator Cantwell....................................     7
Statement of Senator Dorgan......................................     1

                               Witnesses

Dooley, Nancy, Educational Administrator, Department of 
  Rehabilitation and Supervision--Juvenile Division, Gila River 
  Indian Community...............................................    12
    Prepared statement...........................................    14
Haney, Matt, Chief of Police, Colville Tribes....................    16
    Prepared statement...........................................    18
Moorin, Arnold, Director, High Intensity Drug Trafficking Area 
  Program, White House Office of National Drug Control Policy....    21
    Prepared statement...........................................    23
Posey, Hon. Ivan D., Chairman, Eastern Shoshone Tribe............     9
    Prepared statement...........................................    11
Speaker One......................................................     6
Speaker Two......................................................     7
Whelshula, Dr. Martina, Administrative Director, the Healing 
  Lodge of the Seven Nations.....................................     3
    Prepared statement...........................................     4

                                Appendix

Harrigan, Thomas, Chief of Operations, Drug Enforcement 
  Administration, Department of Justice, prepared statement......    33


      EXAMINING DRUG SMUGGLING AND GANG ACTIVITY IN INDIAN COUNTRY

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:00 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We are going to begin the hearing today.
    Other colleagues will be coming. I am sorry that there is 
some inconvenience to the witnesses and others as well because 
we have moved up the time of the hearing to begin at 2:00.
    We have a series of three votes that will start at 2:30, 
which means that we will have to practically depart here about 
2:45. We will have a bit of late time and we will have to come 
back perhaps and finish the hearing following a half hour 
recess, but I appreciate the indulgence of all of you.
    I want to mention that we had a business meeting scheduled 
today that we have changed. Originally, we wanted to move out 
the Indian Health Care Improvement Act today.
    I was consulting with the Vice Chairman, and he and I both 
felt we wanted to make some additional improvements and some 
additional small changes to it, but in the interest of time, we 
will put that--it is a very important piece of legislation--we 
will include that in a business meeting at our next hearing, 
preceding our next hearing, that I believe is on December 3. So 
I wanted everyone to be aware of that, that we had to move the 
business portion of this Committee until the next meeting.
    The Committee is meeting today to discuss a very important 
issue, and I want to talk just a bit about it. We are talking 
about drugs and gang activity in Indian Country, which are both 
symptoms of a larger public safety crisis, I think, that exists 
on many reservations.
    We moved S. 797, the Tribal Law and Order Act, unanimously 
from this Committee last month, and this bill that we have 
moved is the first step in fixing a broken law enforcement 
system. But clearly, much more needs to be done. Increased drug 
use and gang activity place a shroud of fear over many tribal 
communities. We have received testimony that non-Indian gangs 
are exploiting the lack of police presence. In complex 
jurisdictions on the Indian lands, these gangs are treating 
reservations now as safe havens to distribute drugs and to 
perpetuate violence.
    Recently, we learned that increased marijuana growth by 
Mexican gangs and drug cartels occur on U.S. park lands. A 
report noted that the fastest expansion for drug production is 
on Indian reservations. In 2008, tribal police seized more than 
233,000 marijuana plants on Indian reservations in Washington 
State alone.
    Mexican gangs, we know, are moving east into Idaho, 
Wyoming, North Dakota and South Dakota, using reservations to 
produce and distribute drugs, as well as smuggling guns. And we 
know that drug trafficking by these non-Indian gangs have 
enticed a number of Native American youth to join gangs or to 
form their own gangs.
    On June 30 of this year, the Justice Department reported to 
the Senate that Native gangs are now involved in more violent 
offenses like sexual assaults, gang rapes, home invasions, 
drive-by shootings, beatings and elder abuse. In July of this 
year, we received testimony that confirmed this disturbing 
trend. A councilman from Colville Reservation testified about 
the rapes of young girls by gang members who threatened the 
victim's lives and their family members if they spoke out.
    The average Native gang member, we are told, is now about 
15 years old and getting younger. Police report that gangs use 
children as young as eight years old to carry drugs for them in 
order to avoid prosecution. I have two photographs I wish to 
show depicting American teens involved in gangs on the Pine 
Ridge Reservation. One boy is holding an assault weapon. The 
other is receiving a gang-related tattoo. You will see the 
photograph there of the gang-related tattoo. The other 
photograph is of a gang member with a bandanna over his face, 
holding an assault weapon. These are both gang members on a 
reservation.
    We are going to hear directly today from two young men who 
were involved in gangs and who are courageous enough to share 
their story with us through a video conference. I want to thank 
them and their counselor, Dr. Martina Whelshula, for standing 
by, and I look forward to visiting with Dr. Whelshula as well.
    So here is what I would like to do. I would like to go to 
the interactive live exchange we will have, and then we will do 
the three witnesses, and then we will have the Administration 
witness as the last witness today.
    Dr. Whelshula, thank you for being with us. My 
understanding is that you are, as well, with two young Native 
Americans who were gang members, and who are involved with your 
organization. The procedure, of course, is to not disclose 
their identity for fear of what that disclosure would mean to 
them and to their families. We understand that. I believe we 
have provisions to scramble their voice and to not show their 
entire image.
    So Dr. Whelshula, thank you very much for being with us, 
and you may proceed.

 STATEMENT OF DR. MARTINA WHELSHULA, ADMINISTRATIVE DIRECTOR, 
             THE HEALING LODGE OF THE SEVEN NATIONS

    Dr. Whelshula. Thank you. Good afternoon, Chairman Dorgan, 
Vice Chairman Barrasso, and distinguished Committee Members.
    My name is Martina Whelshula. I am a member of the Arrow 
Lakes Nation of the Colville Confederated Tribes in Washington 
State. I am the Administrative Director for the Healing Lodge 
of the Seven Nations.
    The Healing Lodge is a unique program, I think, in that 
seven tribes within the Northwest region came together, 
originally back in the 1980s, in their efforts to keep their 
children close to home. Many of the children who were going out 
for chemical dependency and alcohol treatment were being sent 
far away.
    The Healing Lodge of the Seven Nations is a youth 
residential treatment facility. We have youth ages 13 to 17 who 
come, who struggle with alcohol and chemical dependency 
addictions. We have approximately 30 beds, and we have both 
genders, both female and male. We typically have more males who 
come in to treatment than we do females.
    We have them coming from all over the Western United 
States, from Alaska down to Reno, Arizona, New Mexico. Although 
we are a consortium with seven tribes within the Northwest 
Region, we do serve children from all over the Western Region.
    We are a chemical dependency treatment facility. Ninety 
days is the average stay. We can go up to about 120 days. It is 
interesting in how we found ourselves in this Committee 
hearing, being a treatment facility, is that on an average 
year, we admit about 150 youth into our treatment facility. And 
I would say about two-thirds of those are gang-involved.
    Many of the children or young people that come into our 
program who are getting involved have indicated that nature of 
being in the gangs, you have to be drug-involved, only because 
many of the heinous actions that they are requested to make by 
their gang leaders, they feel like that is the only way to be 
able to do that, to be drug-induced in that sense.
    We have had young people coming into our program, we are a 
predominantly Native American facility, although we are open 
for most children. We have a strong cultural foundation. We 
have a sweat lodge. We have ceremonies, a lot of different 
cultural activities, and so it gives the children an 
opportunity to be able to be a part of an acculturation process 
and building a strong cultural identity.
    And I think in this context and within the context of a 
therapeutic environment, that young people feel a sense of 
safety that they can finally reflect on their lives and they 
can make decisions about what they want.
    One young man who had come in was heavily gang-involved. 
Some we have that are third generation gang families. And in 
the time that he was here, he was able to be a part of the 
spiritual and cultural practices, as well as the healing 
practices that we have available to the young people. And in 
that, he decided that he did not want to go back into the 
gangs. He was heavily involved, and at the time of his 
transition, and speaking with his family, his family had agreed 
then to uproot the whole family and move several States away in 
order to be able to start his life fresh.
    He was very thankful. We followed up with him. He was able 
to get his food handlers permit while he was with us, and he 
was able to gain employment immediately.
    Another young man had come in, almost got killed before he 
came into the treatment center, was very afraid. Most of them 
say that they are tired of being scared, tired of being 
paranoid, worried all the time. They don't want to die. And so 
we were able to help him reconnect with his spiritual 
traditions.
    It was a real powerful reunification with his own 
ceremonial spiritual traditions, and he made the commitment in 
that he realized that he had two choices before he came in. One 
was to pursue those ceremonial practices with his uncle, and 
the other was to remain involved within the gang that he was. 
And he realized that he really wanted to go back and he wanted 
to be reunified with his extended family. And he learned and 
knew ceremonial songs while he was with us, to be able to go 
back and to sing to his uncle.
    So these are the types of things that, although we are 
primarily focused on chemical dependency and mental health 
counseling and treatment, the wonderful byproduct of that is 
those that come in, you know, gang involved, are able to have a 
moment where they can reflect on that lifestyle because that is 
a huge barrier to their treatment.
    And so we have a couple of young men here with us who are 
willing to share their stories, and be willing to answer any 
questions that the Committee might have.
    But I want to say thank you for giving us the opportunity 
to testify before your Committee today, and to make the point 
that I think that the treatment process and providing that kind 
of therapeutic environment for these young people is what gives 
them an opportunity to let their guard down and to be able to 
welcome a new way of seeing life and experiencing and 
responding and then choosing something different for them.
    [The prepared statement of Dr. Whelshula follows:]

 Prepared Statement of Dr. Martina Whelshula, Administrative Director, 
                 the Healing Lodge of the Seven Nations
    Good afternoon Chairman Dorgan, Vice Chairman Barrasso, and members 
of the Committee. My name is Dr. Martina Whelshula and I am a member of 
the Arrow Lakes Nation of the Confederated Tribes of the Colville 
Indian Reservation, and Administrative Director at the Healing Lodge of 
the Seven Nations, a 30-bed adolescent inpatient chemical dependency 
treatment program located in Spokane Valley, Washington. Recognizing 
the need to protect future generations, seven tribes from three 
different states came together back in the 1980s to start this 
treatment facility, which receives Native American youth from the 
Western United States, including Alaska. While we are a Native American 
focused treatment program, we do accept youth from all cultural and 
ethnic backgrounds into our program.
    I appreciate this opportunity to testify today on the prevalence of 
gang activity in Indian Country. Specifically, I will address the 
increasing incidence of gang involved youth coming to our program, and 
the barriers it creates for the program, its participants, and in 
returning the young people to their communities at the completion of 
treatment.
    Accompanying me today are two young men who were involved in gangs 
and are currently in our program. They will remain anonymous as they 
are both under the age of 18, and would like to maintain their privacy 
regarding their alcohol and chemical dependency status. They are here 
to help answer your questions.
Gang Involved Youth at the Healing Lodge
    While we do not have any empirical research on why our young people 
choose to join gangs, after speaking with several of our counselors, a 
definite pattern starts to emerge. For the most part, youth are looking 
for some place to belong. Many come from lower socio-economic 
situations, perhaps from struggling families, and the gang may be the 
only family that they have known. Many, many of our youth come from 
families where drug involvement is intergenerational--and the family 
unit is compromised. Also of concern is the number of parents who are 
incarcerated or deceased due to various reasons including alcohol and 
drugs as well as gang involvement.
    By introducing or reintroducing our Native youth to their cultural 
heritage, we are able to give many a sense of belonging to more than 
just their gangs. The tribe or tribal community becomes the ``family'' 
that they long to belong to, and for many it becomes clear that the 
gangs are there to break down this foundation. Reservation life can be 
hard for them to navigate. With most of their friends, family and the 
community involved in alcohol, drugs and gangs, it is hard for them to 
see a way out. We help them to find their inner strength, to identify 
the positive people in the families and communities, and help them to 
establish a strong foundation to lean on when they leave treatment.
    The Healing Lodge admits roughly 150 youth each year into 
treatment. Of the 150 youth, it would be safe to say that at least two 
thirds come gang involved. Some residents are more heavily involved 
than others, while others are second and third generation gang 
families. Our youth have stated that all gang members they know are 
drug involved or addicted.
    Engaging in gang activity during treatment creates a huge barrier 
to the success of their treatment and recovery, as well as, that of 
their peers. As a program, we prohibit any signs of gang activity. We 
make it clear that treatment is neutral ground for all of our 
residents.
    One resident who came to us heavily involved used treatment as an 
opportunity to reflect upon his life and his future goals. He stated 
that he was tired of being scared, worried, and paranoid. He feared for 
his life all of the time. In treatment he could let his guard down and 
find safety in the therapeutic environment. He became involved in the 
Sweat Lodge and other spiritual activities. When he left, he was very 
motivated to leave his gang. Upon his return home, his family uprooted 
him and moved him back to their home tribal community several states 
away. When we followed up with him, he was doing well. He was thankful 
that we helped him get his food handler's permit, because he was able 
to find employment right away.
    Another resident was reflecting during a counseling session and 
suddenly he blurted out, ``I'm gonna move . . . I'm gonna move . . . I 
don't want to die.'' Since he was in a relationship with a young woman 
and they were expecting a baby, he thought that was his way out. It was 
an honorable way to leave the gang; to take care of his new family.
    One resident almost died prior to attending the Healing Lodge. 
While at the Lodge he was reunited with his spiritual traditions. This 
reunification was powerful and he made a commitment to go home and 
rejoin his extended family. He wanted to prove to his uncle that he was 
serious about rejoining the ceremonial traditions of his family; so he 
learned a new song to take home to his uncle. Songs are very important 
in tribal cultures.
    There are many success stories of residents who discover their true 
selves in the context of a beautiful culture that does not judge them 
and only welcomes them back into the circle of community. Our young men 
and women find a new sense of belonging in traditions hundreds of years 
old. Our cultural specialists are gentle, loving adults who provide the 
cultural and spiritual guidance our young people miss so much.
    Although our mission is to treat our youth for alcohol and 
substance abuse, our approach treats the whole child within the context 
of a rich culture.
What More Can Be Done?
    There is a need for help to build stronger families, communities, 
and cultures. Many Native communities have taken on this task, but with 
limited resources and a lack of experience, they have not had great 
success.
    Our recommendation would be to authorize new programs or augment 
existing programs that provide grants to schools, tribes or tribal 
organizations like the Healing Lodge that have demonstrated gang 
problems to implement culturally appropriate education, intervention 
and prevention activities.

  <bullet> As stated by Brendtro, Broken Leg, Van Bockern in their book 
        Reclaiming Youth at Risk:

        It is of the highest imperative that the modern family be 
        strengthened and stabilized. Today, the typical child is reared 
        by a single parent or by parents who both work outside the 
        home. The decline of extended families and intimate 
        neighborhoods leaves an isolated nuclear family. Public policy 
        has not kept pace with the reality that one or two unsupported 
        adults are often unequipped to successfully rear their young. 
        Many young people roam the streets in pursuit of meaningful 
        human bonds. The tragedy is that, for many, their only option 
        is to seek out relationships with other outcast and unclaimed 
        youth.

    This concludes my statement. At this time, I would be happy to 
answer any questions the Committee may have. For the safety of the two 
young men with me, I respectfully request that questions directed to 
them not involve answers that may compromise their identity. Thank you.

    The Chairman. Dr. Whelshula, thank you very much, and 
thanks to the work at the Healing Lodge of the Seven Nations. 
It sounds extraordinary and very, very important.
    My understanding is the two young men are going to be using 
aliases, Jim and David. Both have been gang members, one in an 
urban gang, one in a reservation gang. Both are Native American 
youth. So if the two young men are there and available to, I 
don't know whether they wish to make any comments at all or 
whether that they would answer questions.
    Dr. Whelshula, would you ask if either of them have 
anything to say that they wish?
    Dr. Whelshula. I think they said that they would answer 
questions.
    The Chairman. All right. Well, their voices are disguised 
because they are obviously concerned about security for 
themselves and their families, having been involved in gangs.
    Let me ask a question of both of the young men. In your 
estimation, how many teens in your community, particularly the 
young man who is in a reservation community, how extensive is 
gang participation in the reservation community?

                    STATEMENT OF SPEAKER ONE

    Speaker One. There is a lot. Everybody is trying to be part 
of it. They see like all the kids doing it and stuff, and it is 
kind of like the trend there, and if you are not part of that, 
you are just like one of the other guys that walks around the 
reservation and gets picked on alot. They see that and they 
want to like join the gangs and stuff. They see it and think it 
is all cool. And now as they get older and older, it just gets 
worse for them.
    The Chairman. You have probably compared notes. One of you 
was in a gang on a reservation; another was in an urban gang. 
What is the comparison of the two?
    Speaker One. I know reservations all this time, like, there 
is nothing really out there. You know the houses out there are 
like really easy to just get broken into. The reservation 
houses kind of suck, you know.
    And the urban ones, you know, they are, I think there are a 
lot more weapons because I had a friend that came up from L.A. 
once and he--a lot of the reservations are mainly fights, 
except when it gets out of hands, they start using knives and 
stuff. I had a friend that had his tendons on his hand cut. You 
know, you normally use guns when there are like drive-bys. Down 
there in the city they mainly just use guns and bats and just 
weapons and stuff like that. It is sort of what my friend did 
anyways. He said that was how it was back where he was from. I 
was like, hmm.

                    STATEMENT OF SPEAKER TWO

    Speaker Two. Yes, in the city it is mainly all about 
weapons. There's no need to use fists or anything. It is mainly 
just gun use. If it comes to like a one on one fight, it is 
usually because it is just the pee wees, which like we consider 
the small time gang member, the ones that just got jumped in, 
and don't have the right to hold a gun yet, had to prove 
themselves. But even when they get in fights, they still pull 
out knives and bats, and they basically do whatever it takes to 
win. You do it for the gang and the colors. And as long as you 
win, that is what keeps moving you up.
    The Chairman. At what age did each of you get involved in 
gang activity?
    Speaker One. I would say about my freshman year.
    Speaker Two. I got involved at an early age, around, I was 
11\1/2\, just turning 12.
    The Chairman. And the other one?
    Speaker Two. I was 11, just turning 12 when I first got 
involved.
    The Chairman. And what barriers are there to a young man 
who gets involved in gang activity and wishes to leave the 
gang? What are the threats and the problems?
    Speaker One. It depends how deep you are and what you have 
done for the gang, and your connections with them, and how much 
you know.
    Speaker Two. They are not very good to be in on the 
reservation. It doesn't even hit them like once they are in, 
they just start following that crowd, you know, when you are 
younger, you want to be with the cool crowd. That's what it's 
about. If you like hanging out with all these older kids, you 
think you are cool and stuff like that, but it's hard to see 
they're just being used and I don't think they see it.
    Speaker One. In the city, it is, I guess the hardest thing 
would be is basically how deep you are in. Like, if you are 
holding a weapon, that means you proved yourself or like you 
have done something, moved a lot of drugs for them, sold them, 
or whatever. Then it is going to be a lot harder to get out. 
You can like tell them you want out, but it is up to them to 
let you out. There are several ways to get out, or long-term, 
there are several ways to get out, and none of them turn out 
good.
    The Chairman. All right. As I indicated the aliases are Jim 
and David. Are there other questions for Jim and David that my 
colleagues wish to ask?
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Yes, Mr. Chairman, I obviously want to 
thank Chief Haney and Dr. Whelshula, as well as the two young 
people, for participating in today's hearing. It is very 
important. And obviously, we are very proud of the work the 
people are doing to integrate with the Bureau of Indian Affairs 
and Department of Justice, various things, but I will leave 
that for a question to Chief Haney in a few minutes.
    But to these two young individuals, I am interested to how 
much of this activity, drug-related activity or gang activity, 
is correlated with methamphetamine.
    Speaker One. A lot of it. In the city, it is all about meth 
and coke, because they go through the most and produce the most 
money which provides them with weapons and then gets the--like 
it attracts other people to wanting to join the gang. And as 
soon as you get into the selling and the weapons, then you get, 
like, that is all you ever wanted. You don't want to leave 
because you have unlimited weapons and unlimited drugs and you 
are wanted there.
    Senator Cantwell. What would you do if you were us in 
trying to combat this problem, given the incredible addictive 
nature of methamphetamine? What would you do?
    Speaker Two. I don't know.
    Speaker One. I really don't know, because it is hard to 
stop it. There is more--again, gangs is more than just one 
route. They, like the cops can make a big drug bust, but what 
they don't know is they make that bust and then, like, five 
different gang members, other gangs get the hint that cops are 
on their trail and they just pick it up and move somewhere 
else. It is hard to stop drugs, especially if they are big 
ones. It can come down to a gunfight or shootouts and stuff 
like that. Then they are looking for fences and people who are 
talking to the cops.
    Senator Cantwell. Have you ever heard of this program in 
Montana where they have taken on a big P.R., you know, 
advertising effort to just convince young people to stay away 
from meth? Have you heard about that or seen any of that since 
you are so close to Montana?
    Speaker One. No, but I have heard of Idaho meth, how they 
are stopping kids in Idaho from using meth. It is on the radios 
a lot here.
    Senator Cantwell. Do you think that is effective?
    Speaker One. It is effective to a point, yes, but I know 
for a fact it won't affect the people who are using. But I do 
think it is effective with the younger ones.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Other questions?
    If not, I want to thank Jim and David and particularly 
Martina. Dr. Martina Whelshula, you are running a program that 
we very much admire and we are inspired by it.
    And to the two young men, our thoughts are with you and 
hope that your work and your ability to be a part of the 
Healing Lodge is very successful. So thank you very much for 
being with us today.
    Speaker Two. Thank you.
    Speaker One. Thank you.
    The Chairman. Good luck to you.
    Speaker One. You, too.
    Speaker Two. You too. Help our economy.
    The Chairman. All right, we will continue. We are going to 
hear from the Honorable Ivan Posey, the Chairman of the Eastern 
Shoshone Tribe in Fort Washakie, Wyoming; Mr. Matt Haney, Chief 
of Police of the Colville Tribes in Nespelem, Washington; and 
Ms. Nancy Dooley, the Director of the Department of 
Rehabilitation and Supervision, Juvenile Division, the Gila 
River Indian Community in Arizona.
    Let's proceed with Chairman Posey. Mr. Posey?

  STATEMENT OF HON. IVAN D. POSEY, CHAIRMAN, EASTERN SHOSHONE 
                             TRIBE

    Mr. Posey. Good afternoon. My name is Ivan D. Posey and I 
currently serve as the Chairman for the East Shoshone Tribe on 
the Wind River Reservation in West Central Wyoming. I would 
like to offer my thanks for allowing me to provide testimony 
today to this distinguished Committee, which includes our own 
Senator from Wyoming, John Barrasso.
    I provided written testimony to this Committee on April 5, 
2006 on the problem of methamphetamines in Indian Country. Due 
to airline problems, I couldn't make it in person. In that 
testimony, I addressed the devastating effects the drug had on 
our social services, health care, education and law enforcement 
agencies.
    Today, I will explain what we have learned from that and 
what we still need to do to address these illegal activities 
that have a major impact on our communities.
    Our reservation was established by the Fort Bridger Treaty 
in 1868 between the Eastern Shoshone Tribe and the United 
States Government. The reservation is occupied by two federally 
recognized Indian tribes, the Eastern Shoshone and the Northern 
Arapaho, and is the only reservation in the State of Wyoming.
    Located in the West Central, Wyoming, the reservation is 
comprised of 2.2 million acres and is spread upon a large rural 
geographical area consisting of 3,500 square miles. The 
Northern Arapaho Tribe is composed of approximately 9,000 
enrolled members, and the Eastern Shoshone is composed of 
approximately 4,000 enrolled members. The majority of the 
reservation residents, however, live in the small communities 
of Crowheart, Fort Washakie, Ethete and Arapaho.
    The majority of the reservation land base is within Fremont 
County, Wyoming. Fremont County leads Wyoming in substance 
abuse and violent crime, and has consistently higher than 
national averages of violent crime and substance use and 
substance abuse effects.
    The examination of drug smuggling and gang activity in 
Indian Country systematically translates into identification of 
the social, economic, justice vulnerabilities and rural 
locations that most tribal nations face. It is these vulnerable 
areas that allows outside influences to target reservations and 
conduct organized illegal activities.
    This is how the Wind River Reservation was systematically 
targeted by the Sagaste-Cruz drug ring from 2000 to 2005 before 
a coordinated law enforcement effort broke up the ring in 2005. 
The drug ring was able to identify the vulnerabilities of the 
reservation and used them as strengths in their illegal 
operations.
    Like many reservations, the Wind River Indian Reservation 
suffers from high unemployment, poverty, substandard housing 
and substance abuse. The primary law enforcement serving the 
Wind River Indian Reservation during the Sagaste-Cruz era was 
the Bureau of Indian Affairs, and operated with an average 
patrolling force of seven officers during the 2000 to 2005 time 
span.
    In relation, the Shoshone and Arapaho Tribal Court and 
Prosecutors Office report that 98 percent of all criminal, 
juvenile, minor-in-need-of-care, and involuntary commitment for 
mental health treatment cases are substance abuse-related.
    With these factors, combined with our large land base and 
the complicated maze of legal jurisdictions, created the basis 
in which Sagaste-Cruz admitted himself when he wrote a drug 
distribution business plan. The plan was simple: introduce a 
drug to a highly addictive population with understaffed law 
enforcement, the allure of easy money, and become entrenched in 
the community through family and interpersonal relationships.
    It is a common plan used by organized gangs that are in the 
drug trade and one that you heard this past July with the 
testimony of Hermis Mousseau of the Oglala Sioux Tribal 
Council. It was not until the coordination and collaboration 
between the tribes, local law enforcement, BIA law enforcement, 
U.S. Marshals, FBI, Department of Criminal Investigation, and 
the U.S. Attorney's Office that investigations yielded any 
information that led to the eventual raids and convictions.
    BIA law enforcement created a drug team to work throughout 
the reservations in Wyoming and Montana to continually address 
illegal drug activity. This is directed by Doug Noseep, who is 
a member of the Eastern Shoshone Tribe and who was the Police 
Chief for the Wind River Indian Reservation when the drug busts 
of 2005 occurred.
    What is sometimes overlooked is the impacts this activity 
had on our other programs, such as social services, health and 
recovery, and our school systems. Some families were devastated 
and children were removed and placed in relative custody. Some 
still remain in relative custody years later. The effects of 
this terrible era touched many families on the Wind River 
Indian Reservation and many knew the people personally who were 
involved in this illegal activity.
    The community rallied to learn more about the 
methamphetamine addiction and the process it takes to make it. 
This was done through conferences which were held on a yearly 
basis and open to the communities. These efforts were supported 
by law enforcement and various tribal programs from the local 
to national level. I personally feel these efforts were highly 
effective. What it takes to continually address these issues 
and concerns is collaboration and relationships.
    It is collaboration and commitment from the Montana and 
Wyoming tribes to open a treatment facility in Sheridan, 
Wyoming to address our substance abuse treatment needs for our 
tribes. This effort will assist the tribe to send our clients 
to a more closer location and will focus on methamphetamine 
addiction.
    I have several other paragraphs here, but it looks like I 
will not be able to finish this testimony, Chairman Dorgan. But 
it is on a written basis and we stress the need for continued 
law enforcement coordination to continue to have our law 
enforcement, our tribal courts adequately funded, and to look 
at other areas that address social and economic concerns of 
tribal reservations.
    [The prepared statement of Mr. Posey follows:]

 Prepared Statement of Hon. Ivan D. Posey, Chairman, Eastern Shoshone 
                                 Tribe
    Good afternoon. My name is Ivan D. Posey and I currently serve as 
the Chairman for the Eastern Shoshone Tribe on the Wind River Indian 
Reservation (WRIR) in Wyoming.
    I would like to offer my thanks for allowing me to testify today 
before this distinguished Committee which includes our own Senator from 
Wyoming, John Barrasso.
    I provided written testimony to this Committee on April 5, 2006 on 
the Problem of Methamphetamines in Indian Country. Due to airline 
problems I couldn't make it in person. In that testimony I addressed 
the devastating effects the drug had on our Social Services, Health 
Care, Education and Law Enforcement agencies. Today I will explain what 
we have learned and what we still need to address concerning the 
illegal activities that had a major impact on our communities.
    The reservation was established by the Fort Bridger Treaty of 1868 
between the Eastern Shoshone and the United States Government. The 
reservation is occupied by two federally recognized Indian Tribes, the 
Eastern Shoshone and the Northern Arapaho and is the only reservation 
in the State of Wyoming. Located in west central Wyoming, the 
reservation is comprised of 2.2 million acres and is spread out upon a 
large rural geographical area consisting of 3,500 square miles. The 
Northern Arapaho Tribe is composed of approximately 9,000 enrolled 
members and the Eastern Shoshone Tribe is composed of approximately 
4,000 enrolled members The majority of the reservation residents 
however live in the small communities of Crowheart, Fort Washakie, 
Ethete and Arapaho.
    The majority of the reservation land base is within Fremont County, 
Wyoming. Fremont County leads Wyoming in substance use and violent 
crime, and has consistently higher than national averages in violent 
crime, and substance use, substance abuse effects (morbidity and 
mortality).
    The examination of drug smuggling and gang activity in Indian 
Country systematically translates into identification of the social, 
economic, justice vulnerabilities and rural locations that most tribal 
nations face. It is these vulnerable areas that allows outside 
influences to target reservations and conduct organized illegal 
activities.
    This is how the Wind River Reservation was systematically targeted 
by the Sagaste-Cruz drug ring from 2000 to 2005 before a coordinated 
law enforcement effort broke up the ring in 2005. The drug ring was 
able to identify the vulnerabilities of the reservation and used them 
as strengths in their illegal activities. Like many reservations, the 
WRIR suffers from high unemployment (63-75 percent), poverty (68 
percent receive some form of public aid), substandard housing, and 
substance abuse. The primary law enforcement serving the WRIR during 
Sagaste-Cruz era was the Bureau of Indian Affairs (BIA) and operated 
with an average patrolling force of seven officers in the 2000-2005 
time span. In relation, the Shoshone and Arapaho Tribal Court and 
Prosecutors Office report that 98 percent of all criminal, juvenile, 
minor-in-need of care (abuse/neglect), and involuntary commitment for 
mental health treatment cases are substance abuse related. With these 
factors combined with our large land base and the complicated maze of 
legal jurisdictions created the basis in which Sagaste-Cruz admitted 
himself when he wrote a ``drug distribution'' business plan. The plan 
was simple, introduce a drug to a highly addictive population with a 
understaffed law enforcement, the allure of easy money, and become 
entrenched in the community through family and interpersonal 
relationships.
    It is a common plan used by organized gangs that are in the drug 
trade and one that you heard this past July with the testimony of 
Hermis John Mousseau of the Oglala Sioux Tribal Council. It was not 
until the coordination and collaboration between the tribes, local law 
enforcement, BIA Law Enforcement, U.S. Marshals, FBI, DCI, and the U.S. 
Attorneys Office that investigations yielded any information that lead 
to the eventual raids and convictions. The BIA Law Enforcement created 
a drug team to work throughout the reservations in Wyoming and Montana 
to continually address illegal drug activity. This is directed by Doug 
Noseep who is a member of the Eastern Shoshone Tribe and who was the 
Police Chief for the WRIR when the drug busts of 2005 occurred.
    What is sometimes overlooked is the impacts this activity had on 
our other tribal programs such as social services, health and recovery 
and our school systems. Some families were devastated and children were 
removed and placed in relative custody. Some still remain in relative 
custody years later. The effects of this terrible era touched many 
families on the WRIR and many knew the people personally who were 
involved in the illegal activity.
    The community rallied to learn more about methamphetamine addiction 
and the process it takes to make it. This was done through conferences 
which were held on a yearly basis and open to the communities. These 
efforts were supported by law enforcement and various tribal programs 
from the local to national level. I personally feel these efforts were 
highly effective. What it takes to continually address these issues and 
concerns is collaboration and relationships.
    It is collaboration and commitment from the Montana and Wyoming 
Tribes to open a treatment facility in Sheridan, Wyoming to address our 
substance abuse treatment needs for our tribes. This effort will assist 
the tribes to send our clients to a more closer location and it will 
focus on methamphetamine addiction.
    The Eastern Shoshone Tribe is working towards the establishment of 
a Wind River Basin-wide Law Enforcement Model that would aid in 
decreasing the demand that is expected of the BIA Police for the Wind 
River Agency. The model was in response to the continued need for 
additional law enforcement officers on the WRIR. This year we were down 
to 6 officers to patrol our vast reservation area. Some calls to the 
police department for assistance went unanswered at times due to the 
lack of officers on duty. I am sure other reservations face the same 
problem. This model will be tribal driven.
    The basis of the model would be to increase the coordination and 
communication between all the law enforcement agencies in the Basin 
through memorandums of understanding and cross-deputization agreements 
while also adding a tribal law enforcement force to aid in manpower. 
Although the process is still in the early stages, all law enforcement 
agencies are in agreement to proceed with this process. Our communities 
within the WRIR may have officers assigned to those specific locations 
such as a town or municipality may have. I am very encouraged with the 
response of all involved to develop and address law enforcement needs 
collectively. The tribe has established a Wind River Law Enforcement 
Commission to act as the facilitators in communicating and coordinating 
the efforts and has recently been notified by the BIA Region V Office 
in Billings, Montana that it intends to use the model for a pilot 
program for other reservations when implemented.
    Although there have been many efforts and coordination in the 
aftermath of the drug busts of 2005 the threat of history repeating 
itself still lingers. With the continued lack of law enforcement facing 
many reservations and many of the conditions I spoke of earlier still 
existing, reservations can once again become targets for illegal drug 
activity.
    We need to learn from the lessons of the past and move cautiously 
forward without letting our guard down. Indian country still needs our 
law enforcement agencies and tribal courts adequately funded, our 
health systems needs to be effective when delivering the needed 
services to our tribal members, and we need to continually educate 
ourselves about these illegal activities that have devastating effects 
to our communities
    Prevention, education and rehabilitation efforts still need to be 
strengthened. Our communities need to assist those who are returning 
from treatment facilities with long term after care programs. We need 
re-entry programs to work with those returning from the prison systems.
    With increased emphasis on trust responsibility and treaty 
obligations from the Federal Government and support from our Elders 
through prayer we will all make our tribal communities safer for all 
our citizens.
    Thank you.

    The Chairman. Chairman Posey, thank you very much for being 
with us.
    Next, we will hear from Nancy Dooley, the Educational 
Administrator of the Department of Rehabilitation and 
Supervision Juvenile Division, at the Gila River Indian 
Community.
    Ms. Dooley, you may proceed.

            STATEMENT OF NANCY DOOLEY, EDUCATIONAL 
 ADMINISTRATOR, DEPARTMENT OF REHABILITATION AND SUPERVISION--
         JUVENILE DIVISION, GILA RIVER INDIAN COMMUNITY

    Ms. Dooley. Chairman Dorgan, Vice Chairman Barrasso and 
Members of the Committee, my name is Nancy Dooley and I am the 
Educational Administrator for the Gila River Department of 
Rehabilitation and Supervision at the Juvenile Division. I have 
worked for the community for 10 years.
    I would like to thank this Committee for giving me the 
opportunity to speak on behalf of the Department and the 
community regarding our shared dedication to the community's 
youth. I have submitted my written comments for the record and 
I ask the Committee to accept my comments.
    The Chairman. Without objection.
    Ms. Dooley. To start, the Gila River Indian Community has a 
total of 19,000 members. The community's jurisdiction extends 
over approximately 600 square miles and shares its borders with 
cities including Phoenix. We have 20 documented gangs operating 
within the reservation. To combat this influence, the community 
has continued to develop an extensive criminal justice system. 
The community's juvenile facility is 35,000 square feet, 
employs 56 staff members, and can house up to 106 juveniles. In 
2009, we had a total of 156 youth that were detained, 104 males 
and 52 females.
    My testimony today will directly speak to the community's 
efforts to combat gangs through youth rehabilitation efforts. 
Gangs are a nationwide problem. Gangs are attracted to Indian 
reservations because of the lack of law enforcement resources 
and the wide open land that offers the opportunity to smuggle 
illegal immigrants and drugs.
    Gangs typically will recruit the young by offering 
attention and money, which translates into a child's mind as 
acceptance and sense of family and security. When a child comes 
to our facility, we provide education and counseling and, most 
importantly, a safe place, free of violence and threats.
    We believe in providing our youth with the knowledge to 
make life-long choices of change. We provide numerous 
opportunities and programs to residents for folks on education 
and counseling We insist on providing residents with a well-
rounded education that includes academic, spiritual, physical 
and mental components.
    The education curriculum follows the State of Arizona 
standards and we offer either a high school diploma or GED 
testing for residents. On average, we have 12 to 15 residents 
who receive their eighth grade certificate, high school diploma 
or GED each year. We recognize our graduates with a formal 
graduation ceremony.
    At one of our most recent graduations, we had one of our 
graduates on that particular morning that did some behaviors 
that kept him from attending his own graduation, so we 
communicated with the parent and told him that he would not be 
allowed to be involved, but asked if the mother still wanted to 
attend, and she did. She came. She accepted her son's diploma 
on his behalf, and at that same time, she proceeded to and was 
given the opportunity to speak with all those that were present 
at the graduation, and let them know the mistakes she had made 
and that her son had made, and that she was so proud of her son 
because he had made an accomplishment that she had never been 
able to do. So it was an exceptional graduation with that.
    Beyond basics, we teach job-related skills including 
concrete work, block work, painting, general construction, 
culinary arts, and culturally specific agriculture gardening. 
Diabetes is epidemic on the reservation. Physical fitness is an 
important part of our program.
    Another important part of rehabilitation is counseling. 
Counseling allows the residents to understand their behavior so 
that they may make better decisions. Programs work with the 
residents to understand why they are in custody, dealing with 
anger, teach accountability, and changing behavior, and 
includes using spiritual and traditional counselors.
    The key to success is the transition of residents from our 
facility to the environment that brought them to the facility. 
About 95 percent of the residents that come into our facility 
are gang members. Residents are being exposed to gang culture 
at a very young age, and have parents who are gang members 
also.
    A particular resident shared his story with me about how he 
joined the gang when he was nine years old. Both of his parents 
were gang members. Unfortunately, his parents were in and out 
of prison and he was mostly raised by his grandmother. As his 
initiation into the gang, he was given a gun to shoot at rival 
gang members and then he had to be on the jumping-in process 
physically beaten by his own gang members to see if he was 
tough enough to be a member of their gang.
    The issue that we face within the juvenile detention 
facility is working with our residents on the transition that 
is so important when they leave our facility that they go right 
back into the same situation.
    Thank you.
    [The prepared statement of Ms. Dooley follows:]

    Prepared Statement of Nancy Dooley, Educational Administrator, 
 Department of Rehabilitation and Supervision--Juvenile Division, Gila 
                         River Indian Community
    Chairman Dorgan, Vice Chairman Barrasso, and Members of the 
Committee, my name is Nancy Dooley, and I am the Educational 
Administrator for the Gila River Department of Rehabilitation & 
Supervision-Juvenile Division (DRSJD). I have worked for the Community 
for 10 years. I would like to thank this Committee for giving me the 
opportunity to speak on behalf of the Department and the Community 
regarding our shared dedication to the Community's youth.
    To start, the Gila River Indian Community (the ``Community'') has a 
total of 19,000 members. The Community's jurisdiction extends over 
approximately 600 square miles and is located in Maricopa and Pinal 
Counties in Arizona. The Community shares its borders with the City of 
Phoenix, Chandler, Coolidge, Casa Grande, Maricopa and Queen Creek. 
With such close proximity to these cities, the Community's challenges 
are unique and range from encroachment of the Community boundaries due 
to urban growth to the influence of urban gang culture in the 
Community. The influence of gang culture has expanded to 20 documented 
gangs operating within the Reservation and estimated gang membership of 
over 200 individuals, ranging from ages 11-24 years old. To combat this 
influence and to address the many other challenges that come along with 
gangs, the Community has continued to develop its tribal criminal 
justice system which includes the Community Court, Law Office, Defense 
Services Office, Police Department, Probation Department, Human 
Services Department, Tribal Social Services and Detention Facilities.
    The DRS manages two detention facilities located within the 
Reservation. The adult detention facility is 97,000 square feet, 
employs 97 staff members and can detain 224 inmates. The juvenile 
detention facility is 35,000 square feet, employs 56 staff members and 
can house 106 juveniles. In 2008, the DRSJD had a total of 156 youth 
that were detained, 104 males and 52 females. The adult detention 
facility was completed in 2001 and the juvenile facility was completed 
in 2003. The construction cost for both facilities was $37.8 million, 
with a federal contribution of $9.8 million. Originally, the federal 
funding was intended to design a misdemeanor minimal security detention 
facility, but the reality for the Community is that we have violent 
offenders and require a higher level of security in the facility. The 
operating budget for both facilities in 2007 was $9.0 million, 
including a federal contribution of $3.1 million.
    My testimony today will directly speak to the Community's efforts 
to combat gangs through youth rehabilitation efforts.
    The mission of the DRS is to uniformly and consistently serve the 
Community's need for security and safety as well as to address the 
rehabilitation needs of our residents. In order to accomplish our 
mission, DRSJD believes in providing our youth with the knowledge to 
make lifelong choices of change. We seek to guide the individual toward 
fulfilling his/her role within the Community by respecting and 
complying with its values, laws, and codes of behavior for the greater 
good of the Community and by acknowledging the strength and sacredness 
of the family and its cultural values. DRSJD provides numerous 
opportunities and programs to Community residents by focusing on 
education and counseling.
Education
    Residents are placed into classes depending on their age, grade, 
class space and academic ability. Each class has a maximum of seven 
residents to facilitate better learning and to provide a safer 
environment for the staff. Gang affiliation is not a consideration for 
placement, as interaction among the residents regardless of gang 
affiliation is important to foster a community environment that is free 
of labels. Classrooms, like Residents' living pods, provide a lesson in 
tolerance and acceptance.
    The education curriculum follows the State of Arizona standards and 
includes reading, math, social studies, science, and language arts. 
DRSJD offers either a high school diploma or GED testing for residents 
and, on average, 12 to 15 Residents receive their 8th grade certificate 
or high school diploma or GED completion each year. As part of our 
social studies curriculum, we follow the curriculum, ``We the People'' 
that is funded by the U.S. Department of Education. Using this 
curriculum, we have a student council so the Residents can learn the 
federal, state and tribal government process.
    DRSJD recognizes that looking to the future of the residents is 
important; that is why we include training for job related skills 
including concrete work, block work, painting, general construction, 
culinary arts and agriculture. The O'odtham people are culturally 
agrarian. Thus to continue the tradition, culture farming is offered to 
the residents on the grounds of the facility. Annual crops include 
zucchini, squash, and citrus, and this produce is incorporated into the 
meals and diet of the Residents.
    Diabetes is epidemic on the Reservation and the DRSJD provides 
diabetes prevention education. Physical fitness as an important part of 
our program, and the residents have one hour of daily exercise that 
ties in the diabetes prevention with good choices in nutrition. We have 
an extensive cardiovascular room and equipment. Each resident is placed 
on a fitness routine for their individual needs such as if they need to 
lose weight, develop upper body strength or endurance. The facility has 
exercise equipment and weights as well as a playing field. We also 
provide lessons in personal hygiene and grooming to residents.
    DRSJD's effort to educate Residents is paying off. Former graduates 
are attending the Scottsdale Culinary School, attending the fire 
department academy and becoming smoke jumpers, enlisting in the 
military, and becoming better parents by using the skills they learned 
in the counseling sessions offered.
Counseling
    The Community believes that counseling Residents in an important 
part of the rehabilitation process. Counseling allows the residents to 
understand their behavior so that they may make better decisions. DRSJD 
offers group and individual sessions that are facilitated by 
counselors. Programs work with the Residents to understand why they are 
in custody, deal with their anger and other feelings, and teach 
accountability, positive action and means to changing behavior, and 
includes the use of spirituality and traditional counselors. DRSJD also 
provides counseling services for Residents that have been convicted of 
sex offenses and alcohol abuse. Over the years, we have had both 
success stories, as well as tragedies. We have those that continue to 
stay in touch with staff, either to let us know what they are doing and 
that they are doing well or those that are having problems and calling 
for advice. One young man that was with us at different times due to 
his gang activity was accepted into the forest fire fighting program 
took the extra step to become a Smoke Jumper and was enjoying his new 
found career, and asked if he could talk to the residents and let them 
know that they can make it and that they don't have to stay on the path 
that they are on and that change is possible.
Effectiveness
    Through my work over the past 10 years, I have seen a number of 
residents come into DRSJD for various charges from runaway behavior to 
homicide. About 95 percent of the residents that come to DRSJD are gang 
members. When I first started working with the Community, it took me a 
number of years to fully understand the impact of gangs on the 
Community and youth. I was shocked and found it difficult to hear that 
many of the Residents would often say that they did not believe that 
they would live past 20 years of age, but listening to many of the 
stories over the years, now I understand why. Residents are being 
exposed to gang culture at a very young age and often have parents who 
are gang members too. A particular resident shared his story with me 
about how he joined a gang when he was 9 years old. Both of his parents 
were gang members. Unfortunately, his parents were in and out of prison 
and he was mostly raised by his grandmothers. As his initiation into 
the gang, he was given a gun to shoot at a rival gang member and was 
``jumped in,'' or physically beaten, by 13 other gang members. After, 
he chose his gang name; he explained that he believed the gang would be 
the family that he never had.
    Since that time, this young man has been involved in multiple shoot 
outs with rival gang members. He has been stabbed 7 different times and 
been shot. He has participated in transporting drugs and illegal status 
individuals from Mexico. His story is similar to many other stories, in 
that despite all the efforts and programs that are offered, there 
remain many social problems that lead a young person right back to gang 
life after being released from DRSJD. However, the philosophy of DRSJD 
programs is to provide young people with better skills and tools to 
make lifelong choices of change, so although this young man did not 
``reform'' or leave his gang, being in DRSJD has provided him, in his 
own words, with ``attention from staff, school and an opportunity to 
reflect on his future.'' The difficult reality is that most gang 
members will not leave the gang for fear of retaliation, and sadly 
because they do not believe they have that option. Attempts to leave 
the gang are mostly accomplished by moving away from the Reservation or 
otherwise distancing themselves from the gang lifestyle.
Cooperative Efforts
    The Community is working diligently to address the gang activity by 
not only addressing illegal activity, but also take preventative and 
intervention steps to address the problem. Preventative measures 
include the Gila River Police Department forming a specialized group of 
police officers called the Community Service Unit (CSU) that reaches 
out to Community members and provides information and presentations 
about identifying signs of gang affiliation to parents, schools and 
teachers for early intervention. CSU also administers a graffiti 
abatement program whereby convicted gang members are required to paint 
over graffiti in the Reservation. With all the programs offered by 
DRSJD, there has been a reduction in recidivism. In 2008, of the 156 
youth there were detained, only 34 were previously detained more than 
once in the facility, which is a 21 percent recidivism rate. This is a 
vast improvement from previous years, such as in 2003 in which the 
recidivism rate was 78 percent.
    Mr. Chairman and other Members of the Committee, we hope this 
information is helpful, and we stand ready to provide any other 
information or assistance you may request.

    The Chairman. Ms. Dooley, thank you very much for your 
testimony, and also for your work. We appreciate your being 
here.
    Ms. Dooley. Thank you.
    The Chairman. And finally, we will hear from Matt Haney, 
the Chief of Police of the Colville Tribes in the State of 
Washington.
    Mr. Haney, thank you for being with us.

   STATEMENT OF MATT HANEY, CHIEF OF POLICE, COLVILLE TRIBES

    Mr. Haney. Good afternoon, Chairman Dorgan, Vice Chairman 
Barrasso, and Committee Members.
    My name is Matt Haney and I am the Chief of Police for 
Colville Confederated Tribes located in North Central 
Washington.
    It has been a new experience for me moving on to a 
reservation. I spent my first 31 years being a law enforcement 
professional in regular cities and counties both in Washington 
State and Alaska. I had very little appreciation or knowledge 
of the challenges that were existing on reservations.
    For about the last three years, there has been a huge 
influx of Mexican gang participation and cultivation of 
marijuana grows on the reservation. That is just once piece of 
the challenges facing us. Over the last three years, there have 
been over 45,000 plants harvested by law enforcement on the 
Colville Reservation, 27,000 this year.
    I am not naive enough to believe that we are catching 
anywhere near the number of marijuana grows in our area. When 
we cover, 2,275 square miles, many times with only two officers 
on, it is impossible to believe that we are really effectively 
policing that large of an area.
    Just to give a couple of examples of recent activity, I am 
not allowed, of course, to talk about a current investigation 
that is going on on this year's grow of 27,000 plants, but I 
can tell you that it is directly related to other grows that 
are occurring on other reservations in Washington State that 
have been tied to a Mexican cartel operating out of California 
and also in Washington State.
    Again, this is just the grows. The grows that we did 
discover this year, some of them purposely and some of them by 
accident, had been in existence for at least three or four 
years. So we are catching them way after the fact, and I can't 
tell you how many plants have been harvested and processed. 
When you really think about the impact, it is not just the 
impact that it is having on our community, but it is also the 
impact that is environmental, because they are bringing in all 
kinds of pesticides and things that have been outlawed in the 
United States for years that are now being used and spread 
across the reservation lands.
    Additionally, another thing that have been facing on the 
reservation has been the reports and documented cases where 
smuggling is occurring from Canada into the United States via 
the reservation. I believe it was in 2006, a plane was actually 
reported on the reservation, on the Columbia River, actually 
known as Lake Roosevelt. It had landed and the officers went up 
there and were able to disable the plane and recover about, I 
think it was around $2 million worth of drugs.
    That was one incident. We have numerous cases of planes 
being reported to us of landing and taking off. Unfortunately, 
with so few people on the reservation and law enforcement, they 
frequently, well, almost always, get away before we are able to 
identify them, and many times they don't have any markings.
    I have only been the Chief there for eight months. This 
year alone we have had two gang shootings, both resulting in 
gunshot wounds; another drive-by shooting just a couple of 
weeks ago, a few weeks ago where a tribal member was struck by 
flying glass from the car window; another fatal shooting where 
the victim died just last Sunday. Many of these shootings, if 
not all of these shootings, are gang- and drug-related. So this 
is not a hypothetical case. This is something that the tribal 
member are facing every day.
    I would like to make a comment, too, about one mechanism 
that could be used to address some of this drug activity on the 
reservation, and that is a program that is already in existence 
called HIDTA, High Intensity Drug Trafficking Areas. It is 
actually run through ONDCP and they fund the HIDTA programs 
across the United States.
    Our reservation and many other reservations that are east 
of the mountains are not declared HIDTA zones. The people who 
work in the drug task forces are very supportive of our 
efforts, but we don't receive the direct funding because we are 
not a HIDTA zone. It would be wonderful if this Committee or 
others could promote the idea of creating an Indian Country 
HIDTA Program where tribes in the Northwest and for that matter 
across the United States could benefit from this program and 
address real time drug issues on the reservations on a 
continuing basis.
    Thank you very much.
    [The prepared statement of Mr. Haney follows:]

Prepared Statement of Matt Haney, Chief of Police, Confederated Tribes 
                      of the Colville Reservation
    Good afternoon Chairman Dorgan, Vice Chairman Barrasso, and members 
of the Committee. My name is Matt Haney and I am the Chief of Police 
for the Confederated Tribes of the Colville Reservation (``Colville 
Tribe'' or ``Tribe''). I appreciate this opportunity to testify today 
on drug smuggling in Indian country. Specifically, I will discuss the 
Colville Tribe's challenges in combating drug smuggling and cultivation 
on the Colville Reservation, provide examples of recent related 
incidents on the Colville Reservation, and provide recommendations on 
how the current situation can be improved.
    Before I begin, I would like to thank the members of the Committee 
and the Committee staff for their work in reporting the Tribal Law and 
Order Act of 2009 for the full Senate's consideration. As we have 
previously indicated, the Colville Tribe enthusiastically supports this 
important legislation and is grateful to the Chairman and Vice-Chairman 
for their willingness to consider and incorporate our suggestions into 
the version of the bill as reported.
The Confederated Tribes of the Colville Reservation
    The Colville Indian Reservation encompasses approximately 2,275 
square miles and is in north-central Washington State. Although now 
considered a single Indian tribe, the Confederated Tribes of the 
Colville Reservation is, as the name states, a confederation of 12 
aboriginal tribes and bands from all across eastern Washington. The 
Colville Tribe has nearly 9,300 enrolled members, making it one of the 
largest Indian tribes in the Pacific Northwest. About half of the 
Tribe's members live on or near the Colville Reservation.
Mexican Drug Trafficking Organizations
    According to a National Drug Intelligence Center Report, Mexican 
Drug Trafficking Organizations (DTOs) are the most pervasive 
organizational threat to the United States. They are active in every 
region of the country and dominate the illicit drug trade in every area 
except the Northeast. According to the U.S. Department of Justice's 
National Drug Intelligence Center, DTOs operate in more than 20 cities 
in Washington State, including the cities of Spokane, Toppenish, and 
Yakima, and others near Indian reservations. The City of Seattle has 
reported that DTOs operating in that city have ties to the Tijuana drug 
cartel.
    During the past three years, the Colville Tribal Police Department 
has identified at least 19 drug cultivation operations on the Colville 
Reservation and has seized more than 45,000 marijuana plants. The 
operations were located throughout the Colville Reservation in the 
Omak, Inchelium, Keller, and Nespelem communities. The plants had a 
street value of $1,000.00 per plant and collectively totaled $45 
million. The majority of these operations appear to have ties to 
Mexican DTOs based on onsite investigations and intelligence. The 
Colville Tribe will provide the Committee with additional information 
for the record on these operations and other major drug busts on the 
Colville Reservation in recent years.
    One case of particular interest was an outdoor marijuana operation 
in the Moses Meadow area of the Colville Reservation and a related 
growing operation in Sherman Pass, a heavily forested area adjacent to 
the Colville Reservation. Investigations into these operations were 
initiated in July 2007 after an Omak Police Officer obtained 
information from an individual who was aware of the operation and some 
of its participants. Surveillance efforts took place throughout July 
and August 2007. By using cellular telephone records, the Colville 
Tribal Police Department was able to identify the network of 
individuals involved and trace the upper level participants to Cutler, 
California.
    When the arrest and eradication operations commenced on August 14, 
2007 at the Moses Meadow grow location, two plant tenders were captured 
at the grow location itself. A search was also conduced at an Omak area 
home where a Mexican national was arrested. On August 15, 2007, two 
more plant tenders from the Moses Meadow grow operation were located 
and arrested. A total of 8,751 marijuana plants were eradicated at the 
Moses Meadow grow location.
    The Moses Meadow growing operation was also connected through 
surveillance and cellular telephone records to a related operation 
located near Sherman Pass and, in turn, to the grow bosses in Cutler, 
California. The eradication of the Sherman Pass grow operation 
commenced on August 16, 2007 and resulted in the eradication of 
approximately 3,000 marijuana plants. Cellular telephone records 
indicated that the plan tenders had vacated the grow site before 
authorities arrived. The use of cellular telephones in such remote 
locations is notable because such communications typically require hill 
top calling locations or antenna boosting systems to facilitate the 
cellular telephones in otherwise low signal areas.
    By the conclusion of these investigations, two of the three 
suspected grow bosses were taken into custody by federal authorities in 
Cutler, California. A total of seven individuals were arrested in these 
operations, all of whom were Mexican nationals, and a total of 10,751 
marijuana plants were eradicated that had an estimated street value of 
more than $1 million. In addition to the Colville Tribal Police 
Department, these investigations involved a number of state, local, and 
federal law enforcement entities and required complex coordination, 
which demonstrates the challenges Indian tribes face in combating these 
types of operations on tribal land. \1\
---------------------------------------------------------------------------
    \1\ These law enforcement entities included the North Central 
Washington Narcotics Task Force; the Omak Police Department; the 
Colville Tribes' Natural Resources Officers; the Okanogan County 
Sheriff's Office; the Drug Enforcement Administration (Spokane, WA); 
the Washington State Patrol Domestic Cannabis Eradication/Suppression 
Program; the Ferry County Sheriff's Office; the U.S. Forest Service--
LEO and Investigations; Immigration and Customs Enforcement (Oroville, 
WA); U.S. Customs and Border Patrol (Oroville, WA); Washington State 
Patrol (Investigations and Air Wing); the Washington Army National 
Guard; the Washington State Civil Air Patrol; and the Federal Bureau of 
Investigation.
---------------------------------------------------------------------------
Airborne Drug Smuggling from Canada
    In addition, the Colville Reservation has also experienced a 
significant amount of cross-border smuggling activity from Canada. 
Since 2006, numerous sightings of unmarked fixed-winged aircraft have 
been reported on or near the Colville Reservation. Most significantly, 
in March 2006, the Colville Tribe's Natural Resources officers and 
officers from the Colville Tribal Police Department seized an unmarked 
float plane from Canada that was attempting to smuggle illegal drugs 
into the United States through the Colville Reservation. After being 
alerted to the plane, the officers were able to respond and disable the 
aircraft when it was attempting to take off from the Columbia River 
near the Grand Coulee Dam. After a long chase, the officers ultimately 
captured the pilot and handed over to federal law enforcement 
authorities an estimated $2 million in illegal drugs that had been 
deposited by the plane. The U.S. Border Patrol honored the tribal 
officers who participated in that seizure.
    In addition to that widely publicized incident, the Colville 
Tribe's law enforcement officers have apprehended or participated in 
the apprehension of several other individuals involved in cross-border 
smuggling activity. Collectively, these efforts have resulted in the 
seizure of millions of dollars in cash, marijuana, Ecstasy, cocaine, 
methamphetamines, and other illegal substances. These airborne 
smuggling incidents were highlighted in the 110th Congress in the 
deliberations that ultimately led to the inclusion of language in the 
Implementing Recommendations of the 9/11 Commission Act of 2007 that 
allows Indian tribes to access grant funding directly from the 
Department of Homeland Security.
    The Colville Tribe continues to receive regular reports of 
unidentified aircraft on the Colville Reservation. Although the number 
of reports of unmarked aircraft has declined since 2006, the Colville 
Tribal Police Department continues to receive regular reports of plane 
sightings and remains very concerned about cross-border smuggling 
activity and other vulnerabilities on the Colville Reservation. In 
response to the airborne smuggling events that began in 2006, the U.S. 
Attorney for the Eastern District of Washington was quoted in a 
northwest newspaper as noting that, ``a person that will smuggle guns, 
drugs, meth, Ecstasy and cash will also be the kind of person who will 
smuggle a special interest alien or a terrorist.''
Resource and Logistical Challenges to Combating Drug Smuggling and 
        Recommendations
    Smugglers have found the Colville Reservation an attractive 
thoroughfare for smuggling activity because of its remote location and 
because of the limited personnel available to patrol such a large area. 
As the Committee is well aware, federal funding constraints severely 
limit the on the ground presence of the Tribe's law enforcement 
officers. For example, today, the Colville Tribal Police Department has 
two officers scheduled for the day shift from 7:00 a.m. to 5:00 p.m. 
and three officers scheduled for the night shift from 5:00 p.m. to 3:00 
a.m. Another officer works from 7:00 p.m. to 5:00 a.m., which means 
that this officer will be the only law enforcement officer on duty for 
the entire Colville Reservation tomorrow morning from 3:00 a.m. to 5:00 
a.m. Although many land-based tribes have similar personnel challenges, 
the Colville Tribe has reason to believe that smugglers, particularly 
the airborne smugglers, exploit our lack of resources by monitoring our 
radio frequencies and coordinating their activities around our 
officers' movements.
    Another challenge to combating grow operations on the Colville 
Reservation is the scarcity of air support. Unless informants 
voluntarily provide information, the use of aircraft for flyovers is 
the only practical method of identifying grow operations. Currently, 
the Tribe has limited access to aircraft through the North Central 
Washington Narcotics Task Force which, in turn, receives its funding 
through the U.S. Department of Justice's Edward Byrne Memorial Justice 
Assistance Grant Program. The Washington State Patrol, on occasion, 
allows the Tribe use of its air support as well. Allowing the Colville 
Tribe and similarly situated Indian tribes with a more formal mechanism 
to access air support would likely increase the effectiveness in 
eradicating grow operations.
    Also, allowing Indian tribes such as the Colville Tribe access to 
the High Intensity Drug Trafficking Area (HIDTA) program would also be 
a proactive step to curtailing smuggling and growing activity on Indian 
lands. As the Committee is aware, while the HIDTA program has been 
successful for increasing coordination and providing additional 
resources for state and county agencies, Indian tribes have unique 
challenges in their ability to access these funds. The Colville Tribe 
does not and has not received any HIDTA funds from its state and local 
counterparts. The Colville Tribe has been a participant in and 
vigorously supports of the efforts of similarly situated Indian tribes, 
specifically the Confederated Tribes of the Warm Springs Reservation, 
to establish a HIDTA type program for Indian Country in the Pacific 
Northwest that would allow for direct funding to tribes.
    Even with its resources and funding challenges, the Colville Tribe 
has generally worked well with federal law enforcement agencies. Most 
significantly, the Tribe has a positive and cooperative relationship 
with the U.S. Customs and Border Protection. Tribal personnel regularly 
attend intelligence meetings with Border Patrol officials and the two 
entities share information on an ongoing basis. The Colville Tribe also 
shares intelligence and participates in ongoing operations with the 
U.S. Immigration and Customs Enforcement agency to identify and attempt 
to curtail smuggling activity. Should the Committee recommend expansion 
of the HIDTA program to Indian country or other initiatives to address 
drug smuggling challenges, the Colville Tribe stands ready to educate 
and coordinate with these and other federal agencies to help make sure 
the initiatives are implemented smoothly.
    This concludes my statement. At this time, I would be happy to 
answer any questions the Committee may have.

    The Chairman. Chief Haney, thank you very much for being 
with us.
    I was just given a note that there are just seven minutes 
remaining in this vote, so I think what we will probably have 
to do is take a recess. I am sorry for the inconvenience to 
those of you who are here, but there are three votes, so the 
recess will likely be about 30 minutes. And we will come back 
and then we will take the testimony of Mr. Arnold Moorin, who 
is the Director of HIDTA. And again, we very much appreciate 
his indulgence.
    Are you able to stay, Mr. Moorin?
    Mr. Moorin. Yes, sir.
    The Chairman. Where are you? There you are back there. All 
right.
    Thank you for being willing to do that. It will be at least 
30 minutes and we will reconvene.
    This hearing is in recess.
    [Recess.]
    The Chairman. I will call the hearing to order.
    Let me apologize to all of you for the inconvenience, but 
there wasn't much we could do about that. The Senate, we got 
its third vote.
    Mr. Arnold Moorin is the Director of the High Intensity 
Drug Trafficking Area Program at the White House Office of 
National Drug Control Policy.
    Mr. Moorin, thank you very much and thanks for your 
indulgence. You may proceed.

          STATEMENT OF ARNOLD MOORIN, DIRECTOR, HIGH 
INTENSITY DRUG TRAFFICKING AREA PROGRAM, WHITE HOUSE OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    Mr. Moorin. Thank you, Chairman Dorgan and Vice Chairman 
Barrasso and Members of the Committee. Thank you for the 
opportunity for me to appear here before you today.
    As you said, my name is Arnold Moorin. I am the National 
Director for the National High Intensity Drug Trafficking Area, 
also known as HIDTA, at the Office of National Drug Control 
Policy.
    I am encouraged that you have convened a hearing to examine 
drug smuggling and gang activity in Indian Country, as many of 
ONDCP's policy objectives address these issues. I have also 
submitted by written comments and ask that the Committee accept 
my submission.
    The Chairman. Without objection.
    Mr. Moorin. I have been in law enforcement for over 30 
years. I began my career right here in Washington, D.C. with 
the Metropolitan Police Department in June, 1975. There, I was 
assigned to several of the city's police districts as an 
officer and a sergeant, and I also served the city-wide 
Narcotics Division.
    In addition to local law enforcement, I also have extensive 
experience with Federal law enforcement. I began my Federal 
career with the Drug Enforcement Administration in 1986 in New 
York City. Following that initial assignment, I was ultimately 
assigned to a multitude of other components within DEA, most 
recently the Seattle Field Division. There, I was a Special 
Agent in charge of the Seattle Field Division, which 
incorporates the Pacific Northwest area and Alaska.
    While assigned to Seattle, I also served as a Vice Chairman 
of the Northwest HIDTA Executive Board. The Northwest HIDTA 
represented the third HIDTA entity which I have been involved 
with during my DEA career.
    I was recently detailed by DEA to ONDCP in September, 2009 
to serve as the National HIDTA Director under the Office of 
State, Local and Tribal Affairs. I am responsible for the 28 
HIDTA entities throughout the Nation for which ONDCP provides 
funding and oversight.
    The HIDTA Program is integral in advancing ONDCP missions. 
The program seeks to disrupt the market for illegal drugs in 
the United States by assisting Federal, State, local and tribal 
law enforcement entities participating in HIDTA Program, and to 
dismantle the drug trafficking organizations, with particular 
emphasis on drug trafficking regions that have harmful effects 
on other parts of the United States.
    The model for the HIDTA Program use is based on a multi-
agency task force that requires participation at all level of 
law enforcement as needed. During my time at the Pacific 
Northwest, I worked extensively with HIDTA initiatives on 
Native American law enforcement issues, primarily marijuana 
eradication.
    One illustration of HIDTA participation with Native 
American law enforcement with which I am personally familiar 
with is the Yakima Nation, located in Yakima County, 
Washington. The Yakima Nation has experienced problems with 
drug trafficking organizations growing marijuana within the 
reservation. As I mention in my written testimony, a HIDTA 
initiative there was established with the Yakima Nation to 
address this serious threat to their culture and tribal lands.
    I want to let you know that Director Kerlikowske and the 
ONDCP are taking proactive steps to enhance initiatives 
designed to address drug problems in Native American 
communities. In the past few months, ONDCP has engaged with 
several national Indian organizations to solicit their input 
regarding development of a national drug control strategy which 
is scheduled to be released in early 2010.
    In closing, I look forward to working with the Congress, my 
counterparts with the Executive Branch, as well as State and 
local law enforcement to tackle the unique challenges of law 
enforcement, prevention and treatment in Indian Country.
    Thank you, and I am happy to answer any questions that you 
may have.
    [The prepared statement of Mr. Moorin follows:]

  Prepared Statement of Arnold Moorin, Director, High Intensity Drug 
 Trafficking Area Program, White House Office of National Drug Control 
                                 Policy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Mr. Moorin, thank you very much.
    I do have a number of questions for you. With your 
permission, I would like to ask Chief Haney to come up and sit 
at the table as well. Is Nancy Dooley here? Would you please 
come up as well? And Mr. Posey, if you will just bring a chair 
up.
    Mr. Moorin, let me ask a couple of questions about the 
issues. First of all, I previously chaired a Subcommittee on 
Appropriations where we funded ONDCP and also the HIDTA 
programs, and I am well familiar with them and think that they 
are very important investments.
    As I look at this, though, the tribes having been awarded 
$1.7 million between 2006 and 2009, I think that we have 
appropriated about $1 billion during that period. That is like 
one-tenth of one percent. So it appears to me that what we have 
is a HIDTA Program that, for the most part, goes to the States, 
and then they distribute. It appears to me that very little is 
actually ending up with Indian reservations or Indian law 
enforcement. Would that be a fair statement?
    Mr. Moorin. I think it is fair, if you just determined that 
that $1.7 million is the only help that arrives from the HIDTA 
Program to the Indian Nations. But I think it is important to 
realize that, as Chief Haney had mentioned earlier, we do 
support non-HIDTA entities, especially when investigations 
start in a HIDTA entity and lead to the different entities. In 
this case, one from Yakima Reservation led to the Colville 
Reservation in which we eradicated I believe it was close to 
27,000 plants. That was a fairly recent investigation that was 
tracked from one investigation to the other, Colville not being 
a HIDTA entity, Yakima being a HIDTA entity.
    The Chairman. But the direct investment that goes to law 
enforcement organizations is what I am talking about. But I 
understand the point that you are making. I think it is an 
important point.
    Chief Haney made the point that there should perhaps be 
some sort of Indian HIDTA. As I reflect on that, it just seems 
to me that with $1 billion out there in HIDTA and only one-
tenth of one percent moving directly to support Indian law 
enforcement, who are the ones that are 24/7 on the 
reservations, it seems to me that we are not connected somehow 
to getting HIDTA funds into those areas where we now clearly 
understand there are some significant Mexican drug gangs and 
Mexican drug trafficking and other things going on.
    Mr. Moorin. And I think that is a conversation we 
definitely need to have, along with our tribal counterparts, 
our Federal counterparts, and with your Committee and yourself 
as well, sir.
    The Chairman. Do you recall what the budget recommendation 
was last year for the HIDTA Program generally? I don't have it 
in front of me.
    Mr. Moorin. Ball park, I would say it is about $230 
million.
    The Chairman. Okay. And do you know what the 
Administration's recommendations are going to be? Do you think 
that will be increased some or stable funding?
    Mr. Moorin. I do not know if it would be or not, but I know 
it was an amount that was congruent to us serving the mission 
of HIDTA.
    The Chairman. You talked about multi-jurisdictional task 
forces. Are there any task forces that are multi-jurisdictional 
that you are a part of that would include law enforcement from 
reservations routinely, other than just temporary task forces? 
Or would there be benefit in creating more permanent task 
forces or something other than temporary task forces that are 
multi-jurisdictional in order to be addressing the drug issues 
that we have had testimony about?
    Mr. Moorin. Well, the two specifically in the Pacific 
Northwest that I can mention is the Yakima Reservation, who do 
provide an officer from the tribal police, as well as the 
Umatilla Reservation by Salem, Oregon as well. And that 
particular task force is a Safe Trails task force. It involves 
the FBI, which is not only a drug crime task force, but an all 
crimes task force.
    The Chairman. In the Colville matter that has been 
discussed, the Northwest tribes, the Colville Police, in that 
circumstance where you had a task force or you had a lot of 
cooperation among various agencies, was the Bureau of Indian 
Affairs present?
    Mr. Moorin. In the Colville matter?
    The Chairman. Yes.
    Mr. Moorin. I am not clear if that happened or not. I would 
not know that.
    The Chairman. Chief?
    Mr. Haney. I can address that. And just to clarify, the 
actual grows that were assisted by another drug task force was 
actually only 3,000 of the 27,000 plants. The first 24,000 were 
actually addressed and harvested using some of the local 
agencies that assisted us, both State and Federal. Then there 
was a connection made between the last 3,000 plants and another 
operation within the Yakima Nation. BIA was not a part of 
either one of those investigations.
    The Chairman. Why would that be the case?
    Mr. Haney. I am not aware of them having anyone up there to 
address it. I did have a conversation that apparently there was 
a BIA drug investigator that is in the general area, but he did 
not participate in this.
    The Chairman. I am trying to understand the role of the BIA 
here, because the BIA represents a big old bureaucracy here in 
Washington, D.C. that spreads its tentacles out through 
regional organizations, and I have had, you know, a number of 
hearings now on law enforcement and trying to understand what 
the BIA's role is and how effective it is.
    As I hear about multi-jurisdictional groups coming together 
on Indian reservations to deal with these issues, what role the 
BIA is playing.
    Anybody--well, I think you've answered it, Chief Haney. I 
will ask elsewhere with respect to the BIA role.
    Mr. Moorin, if you will indulge me, I want to ask a couple 
of questions to the previous panel members as well because I 
disadvantaged them by having to go over and vote.
    Mr. Posey, Chairman Posey, the Wind River Reservation, how 
many enrolled members there?
    Mr. Posey. There are 9,000 Northern Arapahos and 4,000 
Eastern Shoshone, around 13,000. Not all live on the 
reservation. The reservation itself is probably around 10,000 
to 11,000 population.
    The Chairman. What is the geography of your reservation? 
How large?
    Mr. Posey. It is 2.2 million acres.
    The Chairman. And tell me again the drug activity that your 
Tribal Council sees on the reservation. What is your sense of 
it?
    Mr. Posey. Yes, Mr. Chairman. Back in 2005, there was a 
major drug bust on the Wind River Reservation and our 
reservation was targeted by Mexican drug organizations. And the 
cooperation between the Bureau of Indian Affairs, the FBI, the 
DCI and other law enforcement agencies actually cracked down. 
But during that time, we still have a major problem with actual 
law enforcement officers on the ground. Our concern is we would 
hate to see history repeat itself.
    The Chairman. How many law enforcement officers do you 
have?
    Mr. Posey. As of right now, we have six on the ground. We 
have a few more that are going to the Academy. We actually had 
to lift the Indian preference to allow other people to apply 
for those officer jobs.
    The Chairman. You have six law enforcement officers for 24/
7, right?
    Mr. Posey. Yes, and they are working 12-hour shifts. I 
think they are experiencing high burnout rates. They are 
experiencing post-traumatic stress syndrome from a lot of the 
violent crimes and vehicle accidents and stuff related to 
substance abuse and drugs. It is a crisis for us right now.
    The Chairman. Tell me again, the geography, what is the 
size of the reservation?
    Mr. Posey. It is 2.2 million acres, 3,500 square miles.
    The Chairman. And you have six law enforcement officers?
    Mr. Posey. Yes.
    The Chairman. With 13,000 people.
    Mr. Posey. Yes, Mr. Chairman.
    The Chairman. It doesn't sound to me like that works very 
well, does it?
    Mr. Posey. You know, it doesn't. I like to have my 
testimony included into the record here.
    The Chairman. All of the testimony will be a part of the 
record.
    Mr. Posey. Okay. Later on in my testimony, what I didn't 
cover was the need for more law enforcement officers. We 
finally, as a Shoshone Tribe, went to our Billings Area Office, 
which is a stovepipe operation and doesn't have no local 
control. We have no local control over our law enforcement 
agency. They are through the BIA. It is run out of regional 
offices.
    I think they do the best we can, but we finally decided as 
of July of this year that we wanted to create our own model 
that will be tribally driven and have the BIA not drive the 
bus. We will drive the bus and have them be passengers in this 
process.
    The Chairman. Now, you would share the Tribal Council on 
the reservation, right?
    Mr. Posey. Yes.
    The Chairman. And give me your impression of what is the 
trajectory of drug use and gang membership? Is it up, level or 
down on your reservation?
    Mr. Posey. I would say it is probably leveled off since the 
big bust. Methamphetamine continues to be an issue on the Wind 
River Reservation.
    The Chairman. Where is the methamphetamine coming from?
    Mr. Posey. Mr. Chairman, I wish I knew. I think it is still 
being infiltrated by other organizations and probably Denver 
and Salt Lake.
    The Chairman. Do you think it is brought in?
    Mr. Posey. Oh, it has to be.
    The Chairman. Is it not being cooked on the reservation?
    Mr. Posey. Yes, over the past, there have been very few 
labs that have been identified on the reservation, so most of 
the product is brought in.
    The Chairman. How about juvenile detention, young gang 
members that are arrested, do you have a place for them?
    Mr. Posey. We do not have a juvenile detention facility.
    The Chairman. What happens to a 15 year old gang member 
that is engaged in a violent crime and he is arrested by one of 
your six law enforcement officers?
    Mr. Posey. As of right now, we have agreement with the 
Fremont County Detention facility, which charges us $100 a day 
to house those juveniles right now. We do have a planning grant 
to look at the prospect of building a juvenile detention 
facility, but the nearest one we have is Fremont County in 
Lander which will hold them as long as we pay them.
    The Chairman. Do you occasionally put a teenager in a 
regular detention facility as a holding matter for a few days?
    Mr. Posey. You know, we work with Cathedral Home, there is 
the Boys' School in Wyoming. But for the most part, the 
deterrent for young people in trouble is still a big issue for 
us, Mr. Chairman.
    The Chairman. Ms. Dooley, you heard the testimony of the 
two young boys who did not want to testify on camera because 
they were worried about retribution. You come from the Gila 
River Reservation.
    Ms. Dooley. Yes.
    The Chairman. What is the population of that reservation?
    Ms. Dooley. It is 19,000 community members.
    The Chairman. And you are on the outskirts of a large city, 
right?
    Ms. Dooley. Right.
    The Chairman. What is your sense of gang membership and 
drug use? Is it level? Is it increasing?
    Ms. Dooley. I don't have those statistics, but when I 
listen to the young men and women that come into our facility, 
there is a lot of drug trafficking that is taking place across 
the reservation, more so than anybody in my position realizes. 
And I know at times I have spoken with the Police Department 
and the Police Chief within our community, and I was absolutely 
amazed at how much does take place.
    The Chairman. And if a young 14-year-old walks into your 
office on the Gila River Reservation next week, and it is a 
young 14-year-old that is a gang member, addicted to drugs in a 
very significant way and admits to the addiction, where would 
that young person get help for the addiction?
    Ms. Dooley. When they come into our facility, the first 
thing that we do is it is so noted that that addiction is 
there. And working with other tribal agencies, we seek 
rehabilitation for them at placement centers that deal with 
whatever the drug addiction is.
    The Chairman. Are placement centers easy enough to find? 
Are there plenty of spaces in placement centers?
    Ms. Dooley. No. They are filling up very quickly and it 
takes time. A lot of times, we have different individuals that 
have to wait too long within our facility to be able to place 
in a rehabilitation center. There aren't enough centers out 
there.
    The Chairman. Treatment is a very serious issue, not just 
with Indian youth, but generally speaking for drug addiction. 
There are just far too few treatment centers.
    Chief Haney, the Colville Tribes, what is the population 
there?
    Mr. Haney. We have about 9,300 enrolled members.
    The Chairman. And what is the size of the reservation that 
you patrol?
    Mr. Haney. It is 2,275 square miles, about 1.4 million 
acres.
    The Chairman. And how many are on your force?
    Mr. Haney. We actually have 21 officers. So for instance, 
right now there are two officers on duty to cover that entire 
area. Then at five o'clock, there will be three officers on 
duty, total.
    The Chairman. Are these BIA officers?
    Mr. Haney. No, we have our own tribal force. We are a 638.
    The Chairman. Okay. So you are hiring your own folks, then.
    Mr. Haney. Yes, sir.
    The Chairman. And do you have your own training standards? 
Do you get them trained in Artesia? Or where do you get them 
trained?
    Mr. Haney. We send our officers, we were sending them to 
Artesia, but they are quite a ways behind in their academy, so 
my last three officers I have sent to the State Police Academy, 
the academy that is run in Washington State. And then we pay 
for their tuition because that is the way the State is set up.
    The Chairman. And what kind of increase in violent crime is 
occurring on the reservation as a result of drugs and gangs? 
Can you give us some anecdotal description of that?
    Mr. Haney. Yes. It has unfortunately been skyrocketing. I, 
as I had stated earlier, I did not appreciate or understand the 
level of violence and gang activity until I came onto the 
reservation eight months ago. It is hard to really understand 
the impact of this violence until you start to work it, as I 
have and my officers have, because these are, like the two gang 
shootings were between a Mexican gang and a tribal gang, the 
first two gang shootings that occurred after I arrived there 
this summer, or this last spring, I guess.
    And the violence has not lessened any. In fact, if 
anything, it is escalating. And not all of it involves drugs. 
Sometimes it is just between gangs. Sometimes it has been 
between drugs. And then the last drive-by shooting 
unfortunately, as I said earlier, a tribal member was struck 
with flying glass from the car window. She was driving and 
that, again, was done by a tribal member that was high at the 
time, and just shooting randomly at passing cars. That was only 
two miles from my office.
    The Chairman. Mr. Moorin, the HIDTA Program has been a 
program in which both the Congress and the Administration have 
weighed in to decide how much goes where. Right?
    Mr. Moorin. Correct.
    The Chairman. Okay. And so I am going to come back to this 
question of, it seems to me the HIDTA funds, the very title, 
High Intensity Drug Traffic Areas, I don't know that we have 
enough data completely to understand this, but from what data 
we do have, we believe that there are Mexican drug cartels and 
others who are going to reservations and finding ways to addict 
young people on reservations, and then use that as an 
opportunity to create people to move drugs elsewhere into that 
region.
    If that is the case, and I think we need more empirical 
data about that, but it seems to me there is a lot of evidence 
that is the case, then is there a way for us to reflect that 
high-intensity drug trafficking going on targeting Indian 
reservations with respect to how HIDTA money is spent?
    Mr. Moorin. Well, I think you hit on an important point 
right there. Empirically, we will have to look at that. We will 
have to get the stats and analyze the data and understand what 
we are talking about so we can put the resources in the right 
place.
    And if I may, sir, as a back story, HIDTA started out with 
five gateway HIDTAs, as you well know. And those were Miami, 
Houston, New York, L.A., along the border specifically, and it 
has grown since then to 25. And I believe that the extension of 
the tribal areas is an extension of the whole problem 
nationwide. So looking at it as a whole, rather than collective 
individuals, the problem will manifest itself. If it keeps 
getting worse in the rest of the Nation, it will certainly keep 
getting worse in the tribal areas.
    The Chairman. Yes. If the tribal areas, though, are a 
launching point just because if you go into Mr. Posey's area, 
if you are a drug trafficking organization and want some 
capability to do things that aren't going to be discovered 
particularly easily, go to an area where you have that much 
geography to patrol with six people, 24 hours a day, seven days 
a week. It means that there are periods when there is virtually 
no law enforcement out there.
    And so I think what we probably should do is ask ONDCP and 
you, representing the HIDTA organization, if you could work 
with us to try to develop a base of information about what is 
happening with the drug cartels targeting Indian reservations. 
What kind of empirical data can be developed as opposed to just 
anecdotal information? What kind of empirical data can we put 
together that evaluates if this is happening? And if it is 
happening, shouldn't we then shine lights, you know, the notion 
of putting all the spotlights on the same spot if you have 
specific areas of high intensity drug traffic?
    I understand that is why this started out with five sites, 
and those five sites were selected because they were high 
intensity. It is also the case that many Members of Congress 
very much wanted to add HIDTA to their areas or their regions 
because of meth production, which became kind of a cottage 
industry in a lot of the Country, and so these HIDTA areas have 
proliferated.
    It seems to me that dealing with this question of drug use 
on Indian reservations, and always then related gang activities 
and so on, it seems to me that that has been left behind a bit, 
just in terms of where the money has gone.
    I understand that is not your fault. That is my observation 
about the way Congress has meted out this issue of what shall 
be a HIDTA and how shall the money be distributed. I am just 
asking the question rhetorically if maybe this shouldn't be 
changed and evaluated or reevaluated. But I would not do that 
right at this moment without some study and some empirical 
evidence, which I think will exist. I just don't think we have 
gathered it.
    Mr. Moorin. In fairness, we are working with NDIC, National 
Drug Information Center, to do an Indian threat assessment as 
we speak. We are also involved with DOJ for other issues 
dealing with tribal lands. So we are heading in that direction 
and I agree with you more analysis has to be done.
    The Chairman. All right. Would you keep in touch with us 
about the studies that you are doing so that John Harte on our 
staff is working on the law enforcement issues with us, and we 
are going to have additional hearings and meetings with the BIA 
law enforcement folks. We are just trying to move down the road 
here to talk about how to improve law enforcement on Indian 
reservations, to try to evaluate what role does illegal drug 
use on reservations have and drug trafficking; what is the 
tragedy and the threat from gang activities.
    We are just trying to get our arms around the problem. It 
is hard to solve a problem unless you understand the dimensions 
of it.
    And so let me thank all of you for being here and 
testifying.
    Chief Haney, I know you have come a long way. Thank you for 
your law enforcement work.
    Ms. Dooley, you likewise have traveled some distance.
    And Mr. Posey, we appreciate it.
    And Mr. Moorin, thank you for your perspective on these 
issues.
    We will keep the record open for two weeks. If there are 
those who wish to submit additional testimony, including those 
who have not testified, but wish to submit formal testimony for 
the record, they may do that in the following two weeks.
    We thank you very much for your attention.
    This hearing is adjourned.
    [Whereupon, at 3:53 p.m., the Committee was adjourned.]
                            A P P E N D I X

   Prepared Statement of Thomas Harrigan, Chief of Operations, Drug 
           Enforcement Administration, Department of Justice
Drug Trafficking in Indian Country
    Public safety and law enforcement in tribal communities is a top 
priority for the Department of Justice. Earlier this year, the Attorney 
General began a Department-wide initiative to address public safety 
challenges facing Native American communities. As part of that effort, 
Department leadership met with tribal leaders over the last several 
months, including at a listening session convened by the Attorney 
General in Minnesota, and at the Department's annual Violence Against 
Women Act of 2005 (VAWA) consultation with tribes. All federally-
recognized tribes were invited to the Attorney General's listening 
session and to the VAWA consultation. Combating unlawful drug 
trafficking is an important part of the Department's commitment to 
ensuring safety on our reservations and in the surrounding communities.
Nature of the Problem
    In the United States, there are over 560 federally recognized 
tribes, residing on nearly 300 reservations located in over 30 states. 
Sixty-one reservations are within 50 miles of either the U.S.-Canada 
border or the U.S.-Mexico border.
    Drug offenses on reservation lands make up a considerable portion 
of the federal prosecutor's caseload. However, as has been true for 
many years, alcohol continues to be the number one ``drug'' that is a 
factor in the majority of Indian Country crimes. Accordingly, while 
this testimony focuses on the trafficking of controlled substances, the 
Justice Department believes that a serious and comprehensive effort to 
reduce alcohol related issues in Indian Country would go a long way to 
reducing violent crime on reservations.
    Controlled substances used in or trafficked onto a reservation may 
vary by geographic region. For example, in some areas the biggest 
problem might be marijuana while other tribes might experience more 
instances of methamphetamine or cocaine trafficking. Moreover, 
prescription drug abuse has long been a problem for the people of 
Indian Country.
    Native American and Mexican traffickers control most of the retail 
level drug distribution on reservations. The proximity of some 
reservations to the border facilitates drug trafficking. Recent drug 
threat intelligence reports have focused on two cross-border 
reservations: the Tohono O'odham Indian Reservation and the St. Regis 
Mohawk Reservation. There are, however, significant differences among 
reservations with regard to the incidence of trafficking in controlled 
substances. We therefore do not wish to generalize about drug 
trafficking on tribal lands.
    The Tohono O'odham Indian Reservation (TON) in Arizona is the 
second largest reservation in the United States, sharing approximately 
70 miles of border with Mexico. This vast reservation provides ample 
opportunity for border crossing. The Tohono O'odham Indian Reservation 
is believed to be used as a primary corridor for the movement of 
illegal drugs by Mexican drug trafficking organizations.
    The St. Regis Mohawk Reservation, commonly referred to as the 
Akwesasne, straddles the United States-Canada border in northern New 
York. The Akwesasne encompasses more than 14,000 acres in the United 
States and 11,000 acres in Canada. The shared international border and 
geography of the Akwesasne make it conducive to cross-border drug 
trafficking activity. It is estimated that as much as 13 metric tons of 
high-potency marijuana is smuggled into the U.S. through the St. Regis 
Mohawk Reservation every week. High-potency Canadian marijuana and MDMA 
(ecstasy) smuggled through the reservation are transported to and 
distributed in major drug markets throughout the nation.
Federal Law Enforcement Efforts
    The investigation and prosecution of crime in Indian Country is a 
top priority for the Department of Justice. The Justice Department 
partners with federal, state, local, and tribal law enforcement 
agencies to address issues of drug trafficking in Indian Country. This 
collaboration is critical to effectively addressing drug trafficking on 
reservations.
    The Justice Department often relies on a task force approach to 
engage federal, state and tribal law enforcement. For example, the 
Federal Bureau of Investigation (FBI) directs, manages, and funds Safe 
Trails Task Forces (STTFs) composed of federal, state, and tribal law 
enforcement partners that collectively employ their resources in 
addressing regional violent crime problems. STTFs have successfully 
increased the effectiveness of Indian Country investigations and have 
enhanced liaison efforts between the FBI and its Indian Country law 
enforcement partners. STTF participants include the FBI, other DOJ law 
enforcement agencies, the Department of the Interior's Bureau of Indian 
Affairs, tribal police departments, and state and local law enforcement 
agencies. Over the last several years the STTF has resulted in a number 
of arrests and convictions, such as the convictions of nearly 20 
defendants involved in trafficking marijuana and cocaine in Pine Ridge, 
South Dakota.
    In addition, the Drug Enforcement Administration (DEA) has, in 
recent years, made significant headway with the Native American law 
enforcement community to address smuggling, distribution and abuse 
problems. DEA's strategy includes the increased use of Title III 
intercepts as an investigative tool in dealing with the unique problems 
associated with addressing drug trafficking on tribal lands as well as 
providing more training to tribal law enforcement agencies in an effort 
to increase both professionalism and investigative effectiveness. 
Tribal law enforcement agencies cooperate with their federal partners 
and some provide tips and information ultimately leading to federal 
cases.
    In addition to participating in the FBI's Safe Trails Task Forces, 
DEA conducted its own Operation Tomahawk in November 2006 to target 
drug traffickers who target Native American lands for drug distribution 
purposes. Collectively, Operation Tomahawk resulted in a total of 213 
defendants being charged and approximately 29.8 pounds of 
methamphetamine, 10.2 tons of marijuana, 106.686 kilograms of cocaine, 
and $14,764,193 in U.S. currency seized. Additionally, 102 vehicles and 
61 weapons were seized or recovered.
    Operation Tumbleweed, which falls under the umbrella of the DEA 
Special Operations Division's (SOD) Operation Tomahawk, targeted a Drug 
Trafficking Organization operating in the proximity of the Tohono 
O'odham Indian Reservation (TOR). In December 2008, as a result of 
Operation Tumbleweed, DEA in concert with many state, local, and 
federal agencies, dismantled a bi-national drug syndicate. It is 
believed that this drug syndicate smuggled up to 400,000 pounds of 
marijuana annually from Mexico into the United States since 2003.
    As a result of Operation Tumbleweed, 59 individuals were indicted, 
39 arrested on felony drug trafficking charges, including 
transportation and possession of marijuana for sale, illegally 
conducting an enterprise, money laundering, conspiracy, and misconduct 
involving weapons. This operation also led to the seizure of 25,600 
pounds of marijuana, 1 kilogram of cocaine and 11 pounds of 
methamphetamine (both already documented under Operation Tomahawk), 
$760,472 in U.S. currency, 28 vehicles, 25 firearms, and the recovery 
of 14 stolen vehicles.
    The Organized Crime Drug Enforcement Task Forces (OCDETF) Program 
also contributes to major investigations and prosecutions involving 
tribal communities. In SOD Operation Tomahawk, there were approximately 
18 OCDETF investigations. Additionally, DEA Operation Tumbleweed 
included OCDETF Operation El Caballo. OCDETF, a proven and effective 
mechanism to attack drug cartels, uses federal prosecutor-led task 
forces that bring together federal, state, local, and on a ``case 
specific basis'', the inclusion of tribal law enforcement agencies to 
identify, disrupt, and dismantle the cartels through the investigation, 
prosecution, and extradition of their key leaders and facilitators, and 
seizure and forfeiture of their assets
    United States Attorneys' Offices have long been prosecuting 
significant drug cases arising in Indian Country. Examples of recent 
successful multi-agency drug investigations resulting in successful 
prosecutions in Indian Country include:

     United States v. Miguel Angel Chavez (District of North Dakota)

    On November 10, 2009, Miguel Angel Chavez, 33, was sentenced in the 
District of North Dakota to life in prison following convictions for 
drug distribution related offenses, conspiracy to commit identity 
theft, and continuing criminal enterprise (organized, supervised, or 
managed five or more individuals). According to evidence produced at 
trial, from 2003 to 2007 the Chavez organization imported over 150 
pounds of methamphetamine into North Dakota and the Turtle Mountain 
Reservation from Mexico and Eastern Washington. The financial 
investigation conducted in OCDETF Operation Paint by Numbers revealed 
that Chavez stole the identities of individuals to facilitate his drug 
trafficking and money laundering scheme. The organization used bank 
accounts and money wires to conceal the hundreds of thousands of 
dollars in illegal proceeds generated by the organization. It is 
estimated that this organization generated at least $1,500,000 in gross 
profits. Twenty-three co-defendants were also indicted as part of the 
Chavez conspiracy. The majority of these defendants have been sentenced 
or are awaiting sentencing.
    This case represents a sterling example of federal law enforcement 
working collaboratively: the case was investigated by the DEA, BIA, 
FBI, IRS--Criminal Division, and the Department of Homeland Security. 
The Chavez organization is the largest conspiracy case the District of 
North Dakota has prosecuted on the Turtle Mountain Indian Reservation. 
This reservation is a small, economically depressed area. Undoubtedly, 
the enormous amount of methamphetamine injected directly into this 
community was devastating.

     United States v. Diana Martin, Margrette Cobb, and Andrew 
Sonnenberg (Western District of Wisconsin)

    On October 13, 2009, three more defendants in a long-term St. Croix 
tribal drug investigation were sentenced in federal court. Defendant 
Martin received a sentence of 9 years imprisonment, defendant Cobb 13 
years and 4 months, and defendant Andrew Sonnenberg 17.5 years in 
prison. To date, eleven defendants have been sentenced as a result of 
an investigation into drug dealing on St. Croix tribal lands. All 
defendants were engaged in a conspiracy to obtain and distribute crack 
cocaine on the reservation from at least January 2001 through September 
2008. Each member of the conspiracy, at various times, traveled with an 
earlier sentenced defendant, Jean Sonnenberg (received sentence of 19 
years and 7 months), to obtain crack cocaine in the Minneapolis-St. 
Paul area. The drugs were then sold to customers on tribal lands in 
northwestern Wisconsin. During the first several months of 2008, an 
individual working with law enforcement officers purchased crack 
cocaine from members of the conspiracy on several occasions.
    The sentencings of Martin, Cobb, and Andrew Sonnenberg represent 
one more chapter in a long-term investigation conducted by the 
Wisconsin Department of Justice, Division of Criminal Investigation; 
the FBI; St. Croix Tribal Police Department; Rice Lake Police 
Department; Barron County Sheriff's Department; Burnett County 
Sheriff's Department; Polk County Sheriff's Department; Native American 
Drug and Gang Initiative; and Wisconsin State Patrol. The investigation 
is continuing and additional indictments and arrests are expected.
    In addition to investigating and prosecuting drug or gang related 
violent crime in Indian Country, the Justice Department is invested in 
programs that foster training and capacity-building for tribal law 
enforcement. For example, DEA has for many years offered Clandestine 
Laboratory Investigation training to all state, local, and tribal 
police officers (including both BIA and Tribal Police). Several DEA 
Field Divisions provide classroom space and training courses for Tribal 
Law Enforcement Officers in an effort to raise the level of awareness, 
professionalism and effectiveness of these Tribal Officers.
    In addition to these efforts, led by the Department of Justice, DOJ 
law enforcement agencies actively collaborate with other federal law 
enforcement agencies to address crime issues on tribal lands. For 
example, a number of federal law enforcement agencies, including the 
DEA, FBI, Bureau of Alcohol, Tobacco, Firearms and Explosives and the 
United States Attorneys' Offices are members of joint task forces, 
which have successfully dismantled arms trafficking, bulk-cash, alien 
and narcotics smuggling organizations and their attendant cells in the 
United States and Mexico.
Conclusion
    We commend the Committee's interest in the public safety and health 
consequences of drug trafficking on Indian reservations. Drugs, to 
include alcohol, have contributed to the high violent crime rate in 
Indian Country, devastated Native American families, and strained 
resources of tribal law enforcement, health, and social services 
programs. Those consequences remain an important concern at the 
Department of Justice. We look forward to working with you on these 
issues.

                                  <all>

</pre></body></html>
